<html>
<title> - ANNUAL OVERSIGHT OF THE LIBRARY OF CONGRESS</title>
<body><pre>[Senate Hearing 116-19]
[From the U.S. Government Publishing Office]




                                                         S. Hrg. 116-19

                        ANNUAL OVERSIGHT OF THE
                          LIBRARY OF CONGRESS

=======================================================================

                                HEARING

                               BEFORE THE

                 COMMITTEE ON RULES AND ADMINISTRATION
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION
                               __________

                             MARCH 6, 2019
                               __________

    Printed for the use of the Committee on Rules and Administration
    
        
                  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]    


                  Available on http://www.govinfo.gov
                  
                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
35-966                     WASHINGTON : 2019                  
                  
                  
                  
                  
                 COMMITTEE ON RULES AND ADMINISTRATION

                             FIRST SESSION

                     ROY BLUNT, Missouri, Chairman

MITCH McCONNELL, Kentucky            AMY KLOBUCHAR, Minnesota
LAMAR ALEXANDER, Tennessee           DIANNE FEINSTEIN, California
PAT ROBERTS, Kansas                  CHARLES E. SCHUMER, New York
RICHARD SHELBY, Alabama              RICHARD J. DURBIN, Illinois
TED CRUZ, Texas                      TOM UDALL, New Mexico
SHELLEY MOORE CAPITO, West Virginia  MARK R. WARNER, Virginia
ROGER WICKER, Mississippi            PATRICK J. LEAHY, Vermont
DEB FISCHER, Nebraska                ANGUS S. KING, JR., Maine
CINDY HYDE-SMITH, Mississippi        CATHERINE CORTEZ MASTO, Nevada

                   Fitzhugh Elder IV, Staff Director
              Elizabeth Peluso, Democratic Staff Director
              
              
              
              
                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                  Pages

                         Opening Statement of:

Hon. Roy Blunt, Chairman, a U.S. Senator from the State of 
  Missouri.......................................................     1
Hon. Amy Klobuchar, a U.S. Senator from the State of Minnesota...     2
Dr. Carla Hayden, Librarian of Congress, The Library of Congress.     3

                         Prepared Statement of:

Dr. Carla Hayden, Librarian of Congress, The Library of Congress.    18

                  Questions Submitted for the Record:

Hon. Roy Blunt, Chairman, a U.S. Senator from the State of 
  Missouri to Dr. Carla Hayden, Librarian of Congress, The 
  Library of Congress............................................    29
Hon. Amy Klobuchar, a U.S. Senator from the State of Minnesota to 
  Dr. Carla Hayden, Librarian of Congress, The Library of 
  Congress.......................................................    39

 
                        ANNUAL OVERSIGHT OF THE
                          LIBRARY OF CONGRESS

                              ----------                              


                        WEDNESDAY, MARCH 6, 2019

                              United States Senate,
                     Committee on Rules and Administration,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:30 a.m., in 
Room SR-301, Russell Senate Office Building, Hon. Roy Blunt, 
Chairman of the committee, presiding.
    Present: Senators Blunt, Alexander, Klobuchar, Udall, and 
Cortez Masto.

  OPENING STATEMENT OF HONORABLE ROY BLUNT, CHAIRMAN, A U.S. 
               SENATOR FROM THE STATE OF MISSOURI

    Chairman Blunt. The Committee on Rules and Administration 
will come to order. Good morning. Glad my colleagues, some whom 
will be going in and out, are here to join me and we welcome 
our witness Dr. Carla Hayden, the Librarian of Congress. My 
notebook, Dr. Hayden, says the annual oversight of the Library 
of Congress, so this is an indication we are off to a good 
start here of us finding opportunities to be more partners in 
what you are doing and hopefully advocates of what you are 
doing, and on occasion, maybe even advisors as to what you 
should be doing. But we are glad you are here.
    Dr. Hayden is the 14th Librarian of Congress, but only the 
third person actually to hold that job who was a librarian by 
profession. I was fortunate enough to get to know Dr. Hayden 
during her confirmation process in 2016. I certainly 
appreciated then and have not been surprised by the energy and 
enthusiasm she brings to the Library. The Library of Congress 
is our Government's oldest cultural institution. It was created 
in 1800 by the same act of Congress that moved the Capital from 
Philadelphia to Washington, DC.
    The Library was established to preserve our shared history, 
promote and protect scholarship and creativity, and to become a 
world-class repository of a vast collection of works. I think 
the Library has succeeded in that mission. I believe the 
Library continues to fulfill all these goals. When Dr. Hayden 
was confirmed, I said the next Librarian of Congress will lead 
an organization that has significant physical and technological 
limitations and is struggling to adapt to the 21st century. Due 
to a historic shortage of storage space, the Library has 
millions of items stored improperly and at risk of degradation.
    In addition, recent information technology management 
challenges have raised questions about the Library's ability to 
serve future generations as more and more collections need to 
be digitally collected, preserved, and made available to the 
public. I look forward to learning more about what you are 
doing to meet those goals and your other ideas for the Library, 
Dr. Hayden. Before we come to you, I would like to recognize 
Senator Klobuchar, who is struggling with a cold today, but she 
joins me in being interested in what you are doing and has an 
opening statement.

 OPENING STATEMENT OF HONORABLE AMY KLOBUCHAR, A UNITED STATES 
              SENATOR FROM THE STATE OF MINNESOTA

    Senator Klobuchar. Okay. Well, thank you so much, Chairman. 
Thank you, Doctor Hayden for your great work.
    I think I mentioned this before, but it was my childhood 
dream to be a librarian. I even had a recipe box of Dewey 
Decimal System cards of every book I read, but somehow my 
career took a different turn. I want to thank you for your 
work. I love libraries. I think they are more important than 
ever to our civic infrastructure when you look at the access to 
the web and the ability for people to go and get information 
that would not otherwise be able to afford it. If we did not 
have libraries, they would be even further back.
    Your library holds 170 million items, do you know where 
they all are? Has the world's largest collections of legal 
materials, films, and sound recordings. Last year, nearly two 
million people visited and there were 114 million recorded 
visits to the Library's website, which is an interesting ratio 
there and it shows how the websites are just even more 
important. You became the Librarian two years ago. The 
initiatives that you have established and the reforms you have 
implemented speak to your vision of a library that is inclusive 
and accessible to everyone. In recent years, strategic planning 
and performance management has been among the top challenges 
that the Library faces. You and I have talked about the need 
for increased transparency and access. I am glad to see you 
have placed a deliberate emphasis on that.
    This new strategic plan guides the Library in further 
expanding its reach and deepening its impacts. Investments in 
the Library's information technology infrastructure, computing 
facilities, and technology programs are essential. I look 
forward to hearing about that. One thing I wanted to mention 
was the U.S. Copyright Office modernization. As you know, your 
Library is home to the U.S. Copyright Office, critical to our 
economy. Last year copyright industries contributed more than 
$1 trillion to our economy. If you are an inventor, author, 
scientist, musician, filmmaker, or any one of the millions of 
Americans who create original work, the Copyright Office is 
your place.
    Since you became Librarian, you have been working with the 
Acting Register of Copyright, Karyn Temple, to make progress on 
the long overdue modernization. You know, and it is our belief 
that there has been years back a lot of neglect, and we 
understand that meeting the IT needs will not happen overnight. 
It is going to take a continued commitment from us here in 
Congress and from you and Ms. Temple.
    We thank you and look forward to working with you on that. 
The last thing I want to mention is the National Library 
Services, NLS, ensuring that those who cannot read printed 
pages have access to modern braille devices. There have been 
some significant delays associated with the manufacturing of 
these devices, but I was happy to learn that the NLS has 
advanced the pilot program and purchased 1,000 of the devices.
    I look forward to hearing about that. Thank you.
    Chairman Blunt. Thank you, Senator Klobuchar. Dr. Hayden. 
If you would like to make whatever opening comments you want to 
make, and we are glad you are here.

 OPENING STATEMENT OF DR. CARLA HAYDEN, LIBRARIAN OF CONGRESS, 
                    THE LIBRARY OF CONGRESS

    Dr. Hayden. Thank you, Mr. Chairman, and Raking Member 
Klobuchar, and Senator Alexander, thank you for this 
opportunity to represent the Library of Congress and its 
services and its dedicated staff, and I would just like to 
start by recognizing members of the Library's management team 
who are with me today. Mr. Mark Sweeney, who is the Principal 
Deputy Librarian; Bernard Barton, Chief Information Officer; 
Karen Keninger, Director of the National Library for the Blind 
and Physically Handicapped; Mary Klutts, our Chief Financial 
Officer; Mary Mazanec, Director of CRS; Joe Puccio, Acting 
Associate Librarian for Library Services; Jane Sanchez, Law 
Librarian of Congress and Acting Deputy Librarian for Library 
Collections and Services; and Karyn Temple, Acting Register of 
Copyright.
    This is an exciting time for the Library, as we are moving 
forward with significant ways to increase user access. Last 
October, we did unveil a new strategic plan, enhancing and 
enriching the library experience, and it will guide our 
activities through the fiscal year 2023. The plan is committed 
to being more user center and digitally enabled, and presents 
four basic goals, to expand access, to enhance services, to 
optimize resources, and very importantly, to measure our 
impact. Since my confirmation, my goal has been to expand 
users' access to the Library both onsite and online. When it 
comes to the onsite efforts, my top priority has been to 
enhance the visitor experience. In early 2018, I presented to 
Congress an opportunity to enhance the visitor experience in 
that flagship Thomas Jefferson Building to create a new and 
engaging youth center, to improve our exhibit infrastructure 
for a treasures gallery, and to provide more collection-based 
civics and history education to our visitors, who are of course 
your constituents.
    Today I am delighted to present and provide you with a 
first look-in of the plan, and it is seen on the easels around 
the room. We will also have, in addition to the youth center, 
treasures gallery, a welcoming orientation space where visitors 
will learn more about the work of their agency, see Thomas 
Jefferson's Library, and look up through an oculus to view the 
sites of the magnificent main reading room. I want to express 
my appreciation that Congress has committed to a public-private 
partnership to provide $60 million for the project, $40 million 
in appropriated funds to be matched by $20 million in private 
funds raised by the Library. With those, two million annual 
visitors to that building. Many of them are school children, 
and we want them to be inspired by the Library and its vast 
collections, to know more about the history of our country, the 
origins of the Library, which is also part of Congress's story. 
This project will showcase the unparalleled Library 
collections, and I look forward to working with Congress in the 
days ahead, because the Library's collection is its core and 
our library services professionals take great pride in 
addressing preservation and storage needs.
    In fiscal year 2018, the Library reduced the special 
collections processing arrearage by 2.5 million items, and we 
are increasing the efficiency of our current storage spaces by 
installing movable or compact shelving and obtaining new leased 
or permanent collection space, including new modules at Fort 
Meade, Maryland. We are also continuing to modernize our 
information technology operations by centralizing IT services 
and establishing best practices in IT investment and planning. 
Importantly in our approach to IT modernization, there is one 
thing that underlies all activities, three aspects, stabilizing 
our core systems, optimizing our hosting environments, and 
modernizing to provide scalable, flexible technology to all 
Library units, including the Law Library, the Copyright Office, 
and CRS. For instance, the Law Library is embracing 
digitization, the Copyright Office is working in close 
collaboration with the Library's chief information officer on a 
5-year plan to modernize registration and recordation, and CRS, 
who last year provided service to 100 percent of member offices 
in standing committees, is modernizing its service.
    To meet the needs of 21st century Americans who are blind, 
visually impaired, or print disabled, NLS is driving to offer 
accessible text in modern digital format. In closing, the 
Library has made significant progress in many areas important 
for our users, and we are excited about the work to be done. I 
look forward to answering your questions and giving you more 
information.
    [The prepared statement of Dr. Hayden was submitted for the 
record.]
    Chairman Blunt. Thank you, Dr. Hayden. I think we will 
start with Senator Klobuchar.
    Senator Klobuchar. Thank you very much, Mr. Chairman. Thank 
you for that great report. I mentioned the National Library 
Service plan to convert braille and talking books to modern 
digital format. I met with the Minnesota Federation of the 
Blind about this and the NLS work on a pilot program. Can you 
give us an update about what is going on with that?
    Dr. Hayden. I mentioned in my opening statement that we are 
putting great emphasis on making sure the NLS services are able 
to be more robust in the digital age. There have been pilot 
programs. There is a two phase pilot program. Phase one was 
completed with the Perkins School for the Blind in July of this 
past year, and we gathered important information about how we 
will be able to make that transition. There is a request for 
proposal that is now being put out, and that we have another 
network testing to start. I am very pleased today and I 
mentioned that Ms. Keninger is here, and I think it might be 
helpful for her to provide even more insight into the program.
    Senator Klobuchar. Okay.
    Dr. Hayden. If you would not mind.
    Senator Klobuchar. No. That is fine.
    Dr. Hayden. She is right here. This is exciting because we 
are able to look at what is the next generation of service. You 
can understand in the digital age being able to have the 
services being offered in the most modern types of formats, 
including e-readers, will be very helpful.
    Senator Klobuchar. Yes. Okay. Ms. Keninger.
    Ms. Keninger. Thank you, Dr. Hayden. Thank you very much 
and thank you Senator Klobuchar for asking the question and for 
following this so closely over the last couple of years.
    We, as Dr. Hayden mentioned, conducted a pilot project with 
Perkins School in 2017 and 2018, and the goal of that project 
was to test the acceptance of our readers of a limited 
functionality braille device. We ended up with 73 participants, 
and the overwhelming response to the device and to the concept 
of reading digital braille was that they were very, very 
excited about having this become a permanent part of the NLS 
program, and they talked about many of the advantages that they 
found in it. One person talked very much about having the 
ability to simply put her book reader in her purse and carry it 
with her wherever she wanted instead of having to deal with the 
bulk of braille and all of that. That continued through last 
summer, and then was concluded.
    In the meantime, NLS has been working to contract for 
enough readers to be able to have a pilot that would test the 
implementation throughout the NLS network. As you are aware, we 
have some 100 libraries, and about 23 or 24 of those libraries 
are braille lending libraries, and we want to make sure that in 
implementing this new piece of equipment into the program is 
going to be successful. We concluded a contract for devices in 
September of last year. There was a protest and there were some 
other issues, some anomalies, I will say, with the contract and 
we decided to terminate for convenience and to rebid the 
contract. That process is going on right now, and we will have 
a--I think we will have a contract in place by March 25th.
    At that point, we will need to spend time on development 
and non-recurring engineering costs and processes. We expect to 
have the first deliveries of the actual units in approximately 
9 to 12 months after the contract is met.
    Senator Klobuchar. Okay, very good.
    Ms. Keninger. It is going to take some time to actually get 
things in place.
    Senator Klobuchar. Alright. Thank you so much. I just have 
one last question, and we are looking forward to that contract 
getting done. With all the cyber security, Dr. Hayden, going 
on, with all the threats that we have seen on companies as big 
as Sony and others, do you believe the modernization plan at 
the Library, and within the Copyright Office particularly given 
that people are submitting plans and various secretive material 
for their own work, do you think that we're up for these 
threats?
    Dr. Hayden. Being able to deliver services and all types 
of--all of our interactions, NLS, Copyright, CRS, all of them, 
security is of paramount importance. The Library has been 
involved with the legislative branch's cyber security grouping 
and has instituted a number of security measures. Some were 
outlined in the GAO report, and we have implemented not only 
just closed those recommendations but implemented them and have 
moved to have a more secure infrastructure to monitor what is 
happening in all of our operations.
    I just also wanted to add with NLS and what Ms. Keninger 
mentioned, that during the same time, we have had a public 
awareness campaign about NLS services. Actual things on the 
radio and on television encouraging more people to use NLS 
services. We have seen an increase in interest and people 
registering, and we know that actually being able to deliver 
digitally will be a great asset because more people are now 
becoming aware of NLS services. You might have seen some of the 
commercials.
    Senator Klobuchar. Okay. Thank you.
    Chairman Blunt. Senator Alexander.
    Senator Alexander. Thanks, Mr. Chairman.
    Dr. Hayden, welcome. It is good to see you. Thank you for 
the terrific events that you have for Members of Congress with 
prominent writers of American History. Thank you for the 
cultural diversity you have shown by hiring the exhibit 
director from the Country Music Hall of Fame to help you with 
your new presentation. I would think that is a smart thing to 
do, and I appreciated your efforts to expand the Alex Haley 
collection. Maybe I will have more time to talk with you about 
that in a minute.
    But I want to talk with you for a moment about the Music 
Modernization Act. There are very few pieces of legislation in 
the United States Senate that get 82 co-sponsors, but it did. 
It was a complicated bill and it has broad support. The goal 
was to make it possible, among other things, for songwriters in 
this internet age to be paid for their work and to be paid a 
fair market value. A part of that--some of the implementation 
for that, is under your supervision. What can you tell me about 
your timeline for the implementation of the Music Modernization 
Act?
    Dr. Hayden. Thank you for that because the office, the 
Copyright Office is committed to an open and transparent 
designation process. The Acting Register, Karyn Temple, will 
recommend entities to be designated by July 8, 2019. The office 
opened and issued a notice of inquiry regarding the designation 
of mechanical licensing collective and a digital licensing 
coordinator. In looking at what will happen with the Music 
Modernization Act, there have been big changes to the law, and 
the office is continually updating its website to inform the 
public of the changes and to issue notice of the implementation 
dates.
    Senator Alexander. Good. Thank you. Now, let me ask you a 
more specific question. Sort of the genius of the Act, if I may 
say it that way because it brought together the streaming 
companies, and the music publishers, and songwriters, was this 
new entity that will have the job of issuing a blanket license 
for a song, and they go find the songwriter and make sure the 
songwriter gets paid. Streaming companies like it because that 
means they do not have to look around for some songwriter or 
the songwriter's descendant and then get sued if they do not 
find that person. The songwriters like it because the entity's 
job is to find the songwriter and pay the songwriter.
    The language of the law talked about the entity having 
strong support from songwriters and music publishers, endorsed 
by and enjoy substantial support from musical work copyright 
owners, etc. Then the Copyright Office interpreted this to mean 
that relevant support should come from the party's relevant 
ownership interest in the copyright to musical work.
    In contrast to the parties who do not possess any ownership 
interest in the musical work, but rather the ability to 
administer the work. In your opinion, what kind of support from 
songwriters and publishers should this entity have? I am not 
asking you to pick what the entity should be at this point, but 
how are you going to assess whether the entity that is chosen 
has the appropriate amount of support from songwriters and 
publishers?
    Dr. Hayden. Senator, in my role as librarian, I am 
definitely responsible for making sure that the office carries 
out its responsibilities efficiently and effectively, and in 
terms of giving advice or making policy recommendations, I rely 
on the Register of Copyright. If you would like some more 
detail about the specifics of the operation of an----
    Senator Alexander. Well, really, I just wonder what she 
meant? How she understands the idea of ``support by songwriters 
and music publishers'' as you select this entity?
    Dr. Hayden. Now, Ms. Temple is here, and if you would like 
her to address it now or record----
    Senator Alexander. It is up to the Chairman.
    Chairman Blunt. That would be absolutely fine.
    Dr. Hayden. Ms. Temple, could you come up? I just want to 
take this opportunity to commend her for her management of the 
Copyright Office in an acting capacity. She has worked closely 
with the chief information officer on the copyright 
modernization. She has worked closely with me to make sure that 
we are having the best copyright process, and during this time. 
If Ms. Temple could come up, it would be very helpful.
    Senator Alexander. I think it would be a good time to 
pursue this topic so that would be fine. Ms. Temple, if you 
would come up.
    Dr. Hayden. Once again, being in an acting position is not 
always easy, and she has done a commendable job.
    Ms. Temple. Hello. Thank you very much. I appreciate the 
opportunity to speak today. As you know, we did issue a notice 
with the Federal Register on the designation of the MLC, the 
Music Licensing Collective. One of the questions that we did 
ask the parties who are going to be submitting to be designated 
as the MLC, is to demonstrate to us how they do have the 
support of the songwriting community so we will take that 
information in once they do provide it to us to assess and 
ensure that they do meet the statutory requirements and terms 
of having that support of the songwriting community.
    Senator Alexander. Good. I have heard no complaints. I just 
want to underscore the importance of that because the entity--
the idea was to have an entity that knew what it was doing, 
because it had the support of people whom it was serving. So as 
long as you understand the importance of that to those who 
passed the law, I think that is really Mr. Chairman all I 
wanted to emphasize.
    Ms. Temple. I would just add that you know, we do really 
understand the importance. We are committed to a transparent 
and open process in terms of the designation once we receive 
the comments from the various parties that might be interested 
in being designated. That information will be available through 
the Federal Register so everyone will be able to see those 
comments and will be able to assess on their own what we will 
be assessing in terms of making that designation as well.
    Senator Alexander. Mr. Chairman, in conclusion the 
importance of this was over the last few years, what has 
happened is now probably 60 percent of the revenues in the 
music business are now from online sales. The mechanism for 
finding the songwriters and paying them a fair market value was 
about as old as a player piano. This was a very complex and 
important law and it is one I would like to keep my eye on. I 
appreciate the effort that you and Dr. Hayden are making to 
give it your full attention. Thank you, Mr. Chairman for the 
extra time.
    Chairman Blunt. Thank you, Senator Alexander. Before we go 
to Senator Udall, while you are at table, do you want to make a 
little further report on what you have done over your time as 
acting director and your sense of what we can do to do a better 
job protecting intellectual property? I would be interested and 
appreciate Dr. Hayden's comment about the difficulty of being 
in that acting situation.
    You know, we had thought at one time there was a potential 
for even more independence in the direction and the choice, but 
certainly all reports have been that Dr. Hayden's choice was a 
really good one. But I would be pleased if you just take a 
couple of minutes to talk about how you see this role 
developing over the next few years and what you have done in 
the time you have been acting director to prepare the Copyright 
Office for that.
    Ms. Temple. Thank you. I appreciate the question. It is 
indeed sometimes difficult to serve in an acting role, but I 
appreciate the help and support of both the internal Library 
staff as well as the external stakeholders and communities that 
we serve. You know we have been focusing on really trying to 
move the office forward. We do a lot of discussion about 
modernization of the office. One of the things that we make 
clear is that in the view of the office, modernization is not 
just IT, it includes modernization overall.
    You know I have been very, very pleased at how active the 
office has been not only on focusing on IT modernization but 
ensuring that our regulatory practices are also up to date. 
Over the course of the last 2 years, we have issued a number of 
rulemakings to enhance our registration practices, to update 
them and ensure that they are actually going to meet the needs 
of our copyright communities. We have also focused on just 
general operations, ensuring that our recordation and our 
registration system are operating efficiently.
    We are very, very pleased by the resources we have actually 
received over the last few years in terms of being able to hire 
additional staff. We have actually hired nearly 62 staff 
members to work in our registration program over the last 5 
years, and we have actually been able to see a very significant 
improvement in both the number of workable claims that we have 
on hand addressing our backlog, as well as our processing 
times.
    So, in terms of moving the office forward, I think that we 
would continue that, focusing both on IT modernization, but 
also focusing on modernizing the office as a whole in terms of 
its practices and its processes as well.
    Chairman Blunt. Great. Thank you. Senator Udall.
    Senator Udall. Thank very much, Mr. Chairman, and I really 
appreciate you holding this hearing. I want to thank Dr. Hayden 
for coming and testifying today.
    I think oversight of the Library of Congress has an 
important congressional responsibility, and I enjoyed listening 
to your priorities Dr. Hayden in your opening statement. I will 
focus some of my questions on the Copyright Office 
modernization and then on some Native American initiatives that 
I know that we have been working on together. Over the last 
couple of years, I know the Library has made progress in 
improving the Library's infrastructure, investment, and 
operations, and importantly has made progress toward improving 
IT operations in both modernization and efficiency.
    I was excited to see a digital strategy listed as a 
priority in the Library Strategic Plan. I hope we can continue 
to see more progress as the months go on. How the Library and 
the Copyright Office handle tribal issues is also of utmost 
importance to me. Dr. Hayden, I hope we can work together on 
significant issues like tribal engagement on the Music 
Modernization Act as well as the Library's language resources 
for tribes. I was happy to see a digital strategy as part of 
your strategic plan. The By The People Project is of particular 
interest to me. Can you update the committee on the progress of 
the project?
    Dr. Hayden. Yes and thank you very much because the Library 
of Congress as you know has had a long tradition of stewardship 
of Native American resources and materials, and with the 
digitization project, one that we are very proud to advance as 
the Ancestral Voices Project, digitizing stories and recorded 
songs from indigenous communities that have never been heard 
before, and also making sure that as we have special 
initiatives, and we have several to engage with the indigenous 
peoples, that we respect their cultural heritage. That is an 
important aspect.
    The By The People Project is very exciting. It was launched 
on the anniversary of the Gettysburg Address and one of the 
first--it is a cloud sourcing transcribing project where we are 
inviting the American public, including young people, to help 
us transcribe letters to Lincoln and bring them to life is one 
of the projects. That was--since we launched that we had 28,000 
letters to Lincoln that had not been really seen or heard in 
years. 20,000 have been in 3 months, have been transcribed. A 
little problem with cursive writing in young people----
    [Laughter.]
    Dr. Hayden. But that project is showing us that we can put 
other collections up like Branch Rickey, the baseball scout, 
his scouting reports are being put up, and also the papers of 
Rosa Parks. That project really has been getting a lot of 
national attention. I am proud to say that the current issue of 
American libraries cover story is on the Library, it says 
Elsie's New Digital Direction, and there is recognition about 
the digital strategy and how we are opening up our resources, 
digital resources. Very exciting to be part of that.
    Senator Udall. Thank you. We are excited about all of those 
initiatives. Dr. Hayden I know there is a desire by the 
copyright community to have a more streamlined copyright 
process. Could you explain how the copyright community will be 
benefited by your digital initiative?
    Dr. Hayden. Ms. Temple mentioned modernizing is part of the 
main focus and it does involve making sure that we have the 
most effective information technology aspects to help with 
issues like recordation, which is right now a paper-based 
system. Making that available online and streamlining that 
similar to what people are used to in other aspects of their 
lives, car titles, they are used to tax registration, all types 
of things that we want to make sure that the copyright process 
is using the most effective and modern technology. That has 
been a major course. The Copyright Office has established a 
Copyright Modernization Office within its unit, and it is 
working very hard to make sure that information technology--the 
next generation registration system as well as recordation will 
happen within the next few years.
    Senator Udall. Dr. Hayden, the Library of Congress will 
play a role in the implementation of the Music Modernization 
Act?
    Dr. Hayden. Yes.
    Senator Udall. Earlier this week High Country News 
published an article about how the actual impact tribes and 
then the pre-1970, 1972 recordings of cultural ceremonies held 
by museums and universities. As vice chairman of the Senate 
Indian Affairs Committee, I am aware that cultural knowledge, 
who can access it, and when it can be accessed are important 
considerations for tribes. I understand the Library has hosted 
at least one consultation with tribal leaders on this issue so 
far, but I want to make sure that feedback from Indian country 
is being heard on this issue. What is the Library's plan to 
make sure that tribes are engaged with the Copyright Office as 
implementation of the Music Modernization Act? What feedback 
have you heard from the tribes so far?
    Dr. Hayden. The Library is working in collaboration with 
other institutions the Smithsonian's Administration for Native 
Americans and other Federal agencies to make sure that we are 
using all of the available outreach techniques. I mentioned 
making sure that we are also respecting the cultural heritage 
as we participate in this area. We are working with, for 
instance, the Veterans History Project of the Library to 
collaborate with the National Museum of the American Indian to 
reach out to veterans in that community as well. There are a 
number of efforts to make sure that we are being respectful but 
also using technology and getting the word out.
    Senator Udall. Thank you so much. Chairman Blunt, thank you 
very much for your courtesy to let me go a little bit longer. 
There are so many important things that she is doing at the 
Library of Congress. I think I could be here all day, but I 
really appreciate that.
    Chairman Blunt. Well, we are not going to be here all day, 
but there would be time if you could stay----
    Senator Udall. I will submit my questions for the record. 
Okay. Thank you.
    Chairman Blunt. That would be great. There will be a chance 
for that and there will be a chance for a second round of 
questions if we--in all likelihood. Dr. Hayden, on the visitor 
experience, I think you made a proposal last year to the 
Appropriations Committee for the first $20 million and I think 
the Appropriations Committee gave you the first $10 million, $2 
million of which you could use for planning and then the other 
$8 million would be available once there was an approved plan.
    I am looking forward to coming down later when we are done 
with the hearing to see the sketching of what you are thinking 
about doing. Would you talk a little more about the outside 
support for that and how you are doing as you move toward a 
plan would then be approved, what do you expect to ask for in 
this year's Appropriations bill? Actually, I would be 
interested in a little more thought about your concept of how 
people come into the Library and what they will see when they 
come in, where that will happen. We are all relatively familiar 
with the Library, but it would be great for us to begin to 
envision the Library you would like to have greater access to.
    Dr. Hayden. Well, I have to start by thanking Congress for 
approving this opportunity to have a public-private partnership 
to enhance that flagship Thomas Jefferson building, the first 
Federal building and the first library building 1897.
    In this year's budget, there is a request for $10 million 
to continue with the master plan that includes three basic 
things, a treasures gallery that will allow people to, for the 
first time, see all of the collections and their many formats, 
and also, they will be able to have a new experience being 
oriented to the Library, coming in into the Thomas Jefferson 
building from the Visitor Center. Of that two million, 
approximately a million visitors that come into that building, 
60 percent come through that tunnel. We will have a streamline 
entryway and people will go into one orientation center that 
will include the Thomas Jefferson Library. There are 6,000 
volumes, the foundation of the Library. Then they will look up 
into the main reading room that has been called the circle of 
knowledge from the foundation right there on the ground floor.
    After that, people will be able to and 20 percent of the 
people who enter the building on sight are under the age of 18. 
As a former children's librarian, I am very excited about the 
fact that we would be able to have a youth center to engage and 
inspire young people. To have them make their own history and 
interact with our collections. It is a very hands-on, 
interactive learning labs as well. Those elements as you will 
see around the room will give people a sense of what the 
Library of Congress can offer, and also what can happen when 
they return to their homes throughout the country. They will 
know about the Veterans History Project. They will know about 
NLS. They will know that they can download photographs from our 
website. They will be very familiar with the services, and so 
it is an exciting time and we really appreciate Congress's 
support.
    Part of the master plan that will be available on approval, 
we hope, in June will be the resource plan for the fundraising 
aspect. We right now in terms of the $20 million that is being 
committed to be raised through private sources, we have verbal 
commitments for about $11 million already and so on the 
execution of the approval of the master plan, a resource plan 
will go into effect, and we are working on that now with 
outside consultants on development and fundraising. It is a 
wonderful opportunity. People have already in terms of Trip 
Advisor and these different sites that talk about the sites in 
Washington DC, the Library of Congress, that building is 
mentioned as one of the most beautiful, but we want to make it 
one of the most inspiring buildings as well.
    Chairman Blunt. Your vision, your plan would be that all of 
these things would have to happen at the same time? Can they be 
separated in terms of phase one and phase two?
    Dr. Hayden. The funding stream would allow for the first 
two aspects to be put into implementation. The Treasures 
Gallery as well as the youth center would be the first two 
aspects, and then the orientation experience and the access to 
the main reading room would follow.
    Chairman Blunt. In the Treasures Gallery, do you expect to 
try to create a sense there of what you have in your vast 
collection and have that----
    Dr. Hayden. Yes. That is the challenge. Senator Alexander 
mentioned our new Exhibit Director Mr. David Mandel, who has 
been in charge of the envisioning of this. We will be able to 
have a rotating aspect to the Treasures Gallery. There will be 
some items, the Gutenberg Bible, some things that will be there 
at all times, however, we will build it so that we can rotate 
some of the treasures because there are so many. The Library of 
Congress has the world's largest collection of Bibles, the 
world's largest collection of baseball cards, photographs, 
film, sound recordings, all of these maps, so there will be 
different sections in the Treasures Gallery and in the visual 
representation you see that we have made them transparent so 
that you could look into a volume, and you will be able to get 
a sense of it. Each time you return, let's say you return every 
spring, you would see something different. We want to give 
people a sense of just how vast, 171 million items, so we can 
keep going for a little while.
    Chairman Blunt. Exactly. Senator Cortez Masto.
    Senator Cortez Masto. Thank you. Thank you, Chairman Blunt. 
Welcome. Thank you for being here. On that same vein, I know 
fiscal year 2019 Congress appropriated funding for the 
congressional research service to add additional staffing. I 
think 20 new FTEs if I am not mistaken. Can you talk a little 
bit about how this new staff will be able to support 
congressional offices, and whether you believe that increases 
in funding is enough to meet the demands of the CRS?
    Dr. Hayden. We have been very pleased to receive funding 
for staff members who can help with high demand areas. The 
first allotment for staffing was to have almost a field team of 
different junior level staff members. This current 
appropriation has allowed us to give more depth to certain 
areas, health, energy, things like that. We have already seen a 
real impact in terms of our responsiveness. We also are looking 
at modernization with our IT systems and CRS, congress.gov and 
how we can make sure that we have the technical support for 
CRS. We call CRS our special forces and of course that is our 
first mission with the Library of Congress. Making sure that we 
maintain a certain level of expertise and depth 24/7. Whenever 
Congress is in session, CRS is available. Those staff members 
have been critical to filling in for retirements and also for 
supplementing for upcoming issues that Congress might be 
considering.
    Senator Cortez Masto. If I remember the last hearing, is 
there--do you have concerns with a number of staffers aging out 
that are leaving and so you are filling positions, is that 
right?
    Dr. Hayden. Right. Also, we are making sure that there is a 
training that is going on that we are pairing more senior staff 
members and analysts with less senior analysts. We are really 
making sure that CRS maintains a certain level of expertise. 
That is very important that we----
    Senator Cortez Masto. Yes, I agree. Thank you. Thank you 
for that and let me just followup, I knew, or I know that 
Congress used to have an office of, if I remember correctly, 
technology assessment years ago and it provided Members of 
Congress with independent expertise on emerging technology and 
it helped to inform our policies. The program ended in 1995 and 
I am curious, do you have any recommendations for Congress on 
how to ensure we can work with you to ensure we are getting the 
independent analysis that we need to oversee and regulate 
emerging technologies? For instance, several of the committees 
I am on and a lot of my legislation focuses on smart 
communities, privacy data, the use of this new technology, what 
it means for security and utilization in the future. I do not 
know if you think that there is a role somewhere where Congress 
can play in helping as we develop the policy in that 
independent, kind of technical area.
    Dr. Hayden. One of the specialties of CRS in the way that 
they look at forecasting what might be a policy issue or an 
area that they need to either supplement the staff expertise 
that they have or do additional research is to be able to say, 
this is an area that Congress is interested in, and so that is 
where they have that flexibility of being able to make sure 
that they have analyst or they have access to the information 
if it is presented to CRS.
    Senator Cortez Masto. What I am hearing is that the 
individual staffers that you bring onboard may have an 
understanding or background in there, or know where to find it 
to provide policy expertise in this emerging area, emerging 
technology?
    Dr. Hayden. Yes. That is the key to having the ability to 
hire different staff members. In CRS, they have a policy 
grouping, so you might have, and this is one of my favorites, 
you might have a librarian embedded in the energy grouping. You 
have a Ph.D. in energy policy, and you have different people 
with different backgrounds as part of CRS too. When they see, 
and that is part of what they do, is to keep their--really, 
they are on the pulse of Congress and issues, and also, they 
ask Congress and staffers what issues do you foresee or things 
that you think that we need to look into.
    Senator Cortez Masto. Thank you, and I know my time is up. 
Let me just say this. The short time that I have been here, 2 
years, the staff that I have interacted with at the Library of 
Congress is tremendous, and even on the research side as well. 
I have been over there asking specific areas to help with 
research and they were spot-on. Thank you very much. I 
appreciate all the good work that the staff does as well.
    Dr. Hayden. They are original search engines. They are 
dedicated to Congress. You have your own search engine.
    Senator Cortez Masto. Thank you.
    Chairman Blunt. Thank you, Senator. Senator Alexander.
    Senator Alexander. Thanks, Mr. Chairman. Dr. Hayden, I want 
to talk with you for a minute about Alex Haley. I thank you for 
arranging for me to come over and see the new collection last 
year that you acquired of some of his things, and I have a 
suggestion for you about Alex Haley. Sometimes we forget the 
importance of what he did. He wrote two best-selling books of 
the African American experience, ``The Autobiography of Malcolm 
X'' and his book ``Roots''. There is some academic disdain for 
``Roots'', and I have always thought it was because number one, 
the disdainers did not write the book themselves. They were 
jealous.
    Second, they said that some of the facts that he had were 
not exactly right, but you know ``In Cold Blood'' would not be 
a good book if that were true. They are tremendously important 
books about the African-American experience in America, and he 
did a lot of his research at the Library of Congress. I was 
wondering two things. One, have you been able to do anything 
about the collection that you have got? I know you have lots of 
collections and you are itemizing things and getting them in 
order. That is one. My suggestion is, why not think about with 
your expert new exhibit person, an exhibit about how Alex Haley 
used the Library of Congress to write ``Roots''.
    The commissioner of the National Football League told me 
one time that the 10 best watched football--that the 10 best 
watch television programs in history were nine Super Bowls and 
the ``Roots'' series in the 1970's. I think it would be 
interesting for people to see how he went to Africa and got the 
story from a griot that took him back to his seventh generation 
ancestor and how he went to the Library of Congress and found 
the name and the date of the slave ship that actually brought 
that ancestor to Annapolis. How in a speech in Iowa at a 
college, he met the seventh generation descendant of the person 
who bought his seventh generation descendant, on a farm at an 
auction in Virginia.
    I think all that would be fascinating to the American 
people just as the ``Roots'' series was, and I think it would 
help people understand how the Library of Congress can be so 
useful to people who are trying to tell the story of our 
country. One, what about his collection, how is that coming? 
Two, what about the idea of an exhibit that says here is how 
Library of Congress helped Alex Haley tell the story of 
``Roots''?
    Dr. Hayden. Sir, you have definitely previewed a part of 
what we want to emphasize in either the orientation experience, 
or the Treasures Gallery. How many notable films, books, have 
started in research at the Library of Congress. We want to 
emphasize the fact that Alex Haley did research. Also have 
quotes about what it felt like to be in that reading room. 
David McCullough, Doris Kearns Goodwin, we want to have almost 
a roll call of recognizable names that people can really, 
``wow'', they did their research at the Library of Congress and 
then encourages them to do their own.
    That collection is one of the collections that is being 
prioritized with the very generous staffing that we received 
last year to take care of the arrearage that I mentioned 
earlier. That is one of the collections that is in the 
processing line because we know there is quite a bit of public 
interest. We also want to emphasize with young people in the 
youth center that they can do history research and become 
history detectives. Those types of aspects about what can the 
Library of Congress do for you are what we are going to 
emphasize with the new visitor experience.
    Senator Alexander. Thank you very much. I remember he was 
telling me the excitement he had when he actually was able to 
find either the actual bill of lading or the newspaper report 
of the ship Ligonier when it landed in Annapolis carrying his 
seventh generation ancestor Kunta Kinte. Now that could have 
been at the National Archives, but I am almost certain it was 
at the Library of Congress. To go over those things, that years 
of research and genealogy and the artifacts that are there. I 
think that would be an interesting story. Thank you very much.
    Dr. Hayden. It would stimulate people too. To think, wow, 
what can I find, who are my ancestors. Genealogies is a big 
part of our collections. We want people when they come into the 
Library to think about what they might be interested in and see 
right there, using technology, what the Library has about their 
state.
    Senator Alexander. Well, that is true. My time is up, but 
maybe the most important effect of the ``Roots'' series in the 
1970's was it filled up libraries all over America. People 
began to go to libraries to find out about their own roots.
    Chairman Blunt. Thank you, Senator. Just to ask a couple of 
questions and there will be more questions for the record. The 
Library has requested amendment to expand the American Folklife 
Center's Board from 7 to 9, and the two specific additions 
would be the Secretary of Veterans Affairs and the Director of 
The Institute of Museum and Library Services, would you speak 
to that for just a moment?
    Dr. Hayden. I mentioned also Veterans Services in our 
history project and our emphasis on making sure that we connect 
with veterans in as many ways as possible. To add to the 
American Folklife Center's Board, the Secretary of Veterans 
Affairs would signal that importance in our oral history 
projects and just making sure that that is front and center. 
Also, to look at a closer connection with the Institute of 
Museum and Library Services, the grant-making agency that 
connects to public libraries, school libraries, and college 
libraries for innovative projects. Having representatives from 
those two entities would strengthen the Folklife Board, but 
also deepen the relationship with those two entities.
    Chairman Blunt. We will talk about that and see if we can 
get that legislation moving in the direction you would like for 
it to. In March 2015, this is one of the things I referred to 
the day that we confirmed you as the director, the 
technological challenges, the management challenges. The GAO 
had the included 31 specific recommendations to the Library to 
strengthen the management of its IT system. Do you have any 
update on that, how you are doing approaching those 31 specific 
recommendations?
    Dr. Hayden. Mr. Barton is here, as I mentioned, our chief 
information officer, and all those 31 recommendations, as of 
today, the Library has closed and implemented 27. We also have 
made great strides with the non-public recommendations. Most of 
those have to do with security, and we have been at the 
forefront in the legislative branch with working on the 
security recommendations. The GAO report provided a road map 
for us with IT improvements and so the centralization of our IT 
efforts, the fiscal oversight of IT investments, has been a 
major part of it as well. The 27 out of the 31 and the 
remaining are at GAO waiting to be reviewed. All 31 have been 
addressed. We are very pleased.
    Chairman Blunt. We will get that on the record of the 
hearing. What has happened, the 27 in place, the 4 you now have 
over at GAO. The silos issue, we were hoping that you also 
would eliminate the inability for everybody to get to all the 
information they needed to get to.
    Dr. Hayden. The security aspect was very important. We had 
20 units that had security authorizing staff members. We have 
consolidated that to one professional security officer who is 
reviewing all the security requirements and needs of the 
Library, and that has made quite a bit of difference. We have 
started things like multi-factor authentication even with our 
staff members.
    Chairman Blunt. Well, and I think, you know, it was 
anticipated there would be some significant cost benefit 
analysis and we will ask about that as well. I have a handful 
of things here we will get to, library and E-rates, and 
Universal Service Fund, things like that we might have to have 
you back quicker than----
    Dr. Hayden. Well that would require a semiannual report 
would be good.
    Chairman Blunt. I think very few people volunteer to show 
up more often, particularly here at first. We are glad that you 
are here, Dr. Hayden. Thanks for coming. Thanks for bringing 
your team today. I am also going to be asking back to Director 
Keninger's comments about how long you think it will--and how 
you will continue to make available more traditional technology 
that many of the people you serve will want to have.
    But I do think cost-effective, access effective, time 
effective, the digital transfer, as other things have been 
replaced over the years by what people have gotten used to now, 
I think they are going to get used to this so pretty quickly. I 
think there is some significant cost savings there for the 
Library and for the taxpayers that support it. The record will 
be open for 1 week from today. We ask you to respond quickly 
when we get those questions to you.
    [The information referred to was submitted for the record.]
    Chairman Blunt. The committee is adjourned.
    [Whereupon, at 11:33 a.m., the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  

                                  [all]
</pre></body></html>
